     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VII
                                                                          601 East 12th Street, Room 0429
                                                                          Kansas City, MO 64106

August 23, 2010

Report Number: A-07-10-01086

Ms. Vivianne M. Chaumont
Director, Division of Medicaid & Long-Term Care
Department of Health & Human Services
301 Centennial Mall South
Lincoln, NE 68509

Dear Ms. Chaumont:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Nebraska Medicaid Payments for Home Health
Agency Claims Paid to First Care Home Health of Eastern Nebraska, Inc. We will forward a
copy of this report to the HHS action official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-07-10-01086 in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure


HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




REVIEW OF NEBRASKA MEDICAID
 PAYMENTS FOR HOME HEALTH
   AGENCY CLAIMS PAID TO
 FIRST CARE HOME HEALTH OF
   EASTERN NEBRASKA, INC.




                      Daniel R. Levinson
                       Inspector General

                         August 2010
                        A-07-10-01086
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Nebraska, the Department of Health & Human
Services (State agency) administers the State’s Medicaid program in accordance with its CMS-
approved State plan.

A home health agency (HHA) provides skilled nursing services, home health aide services, and
medical supplies and equipment to Medicaid recipients. Nebraska Administrative Code 471,
section 9-002.02, states that all home health services must be necessary to a continuing medical
treatment plan, prescribed by a licensed physician, and recertified by the licensed physician
every 60 days. In addition, Nebraska Administrative Code 471, section 2-001.03, requires that
HHAs submit claims which are true, accurate, and complete, and maintain records on all services
provided for which a claim has been made. HHAs submit claims to the State agency in order to
receive compensation for the services they provide to Medicaid recipients.

The responsibilities of the State agency include processing and monitoring HHA claims. As part
of its monitoring responsibilities, the State agency has controls in place to ensure that payment
limitations, such as a daily payment cap on nursing services and limits on therapy services, are
not exceeded. If a problem or concern is identified, the State agency reviews a provider’s
supporting documentation to ensure that the payment is appropriate. The State agency then
submits to CMS its Medicaid expenditures for the Federal share of its claimed costs.

First Care Home Health of Eastern Nebraska, Inc. (First Care), is an HHA based in Lincoln,
Nebraska. For the period July 1, 2008, through June 30, 2009, the State agency claimed
$2,808,826 ($1,822,039 Federal share) for HHA services that First Care provided.

OBJECTIVE

Our objective was to determine whether the State agency claimed costs for HHA services
provided by First Care in accordance with Federal and State requirements.

RESULTS OF REVIEW

For our review of the 100 claims in our sample, we determined that the State agency claimed
costs for HHA services provided by First Care in accordance with Federal and State
requirements. Specifically, First Care (1) maintained medical records supporting all services
performed and (2) ensured that the services were performed as authorized in the physicians’
signed plans of care.

This report makes no recommendations.
                                                i
                                                  TABLE OF CONTENTS

                                                                                                                      Page

INTRODUCTION...................................................................................................... 1

          BACKGROUND ............................................................................................. 1
              Medicaid Program and Home Health Agency Services ...................... 1
              Nebraska Department of Health & Human Services ........................... 1
              Nebraska Home Health Agency Services ............................................ 2
              First Care Home Health of Eastern Nebraska, Inc. .............................. 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ........................................... 2
               Objective .............................................................................................. 2
               Scope .................................................................................................... 2
               Methodology ........................................................................................ 3

RESULTS OF REVIEW ........................................................................................... 3

APPENDIX

          SAMPLE DESIGN AND METHODOLOGY




                                                                    ii
                                      INTRODUCTION

BACKGROUND

Medicaid Program and Home Health Agency Services

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Section 1905 of the Act authorizes State Medicaid agencies to provide home health agency
(HHA) services to Medicaid recipients. Pursuant to 42 CFR § 440.70, these services include
skilled nursing services, home health aide services, and medical supplies and equipment. In
addition, the HHA services may also include physical therapy, occupational therapy, or speech
pathology and audiology services.

Nebraska Department of Health & Human Services

In Nebraska, the Department of Health & Human Services (State agency) administers the State’s
Medicaid program. During the period July 1, 2008, through June 30, 2009 (our audit period), the
State agency paid approximately 21,000 Medicaid claims for HHA services.

The responsibilities of the State agency include processing and monitoring HHA claims. As part
of its monitoring responsibilities, the State agency has controls in place to ensure that payment
limitations, such as a daily payment cap on nursing services and limits on therapy services, are
not exceeded. If a problem or concern is identified, the State agency reviews a provider’s
support to ensure that the payment is appropriate.

On a quarterly basis, the State agency submits to CMS its standard Form CMS-64, Quarterly
Medicaid Statement of Expenditures for the Medical Assistance Program (CMS-64 report), to
summarize, by category of service, Medicaid expenditures for Federal reimbursement. CMS
reimburses the State agency the Federal share of the State agency’s claimed costs, based on the
Federal medical assistance percentage (FMAP). The State of Nebraska’s FMAP for the period
July 1, 2008, through September 30, 2008, was 58.02 percent. The American Recovery and
Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted February 17, 2009,
authorized the States to receive a higher FMAP. For the period October 1, 2008, through
March 31, 2009, the State of Nebraska’s FMAP was increased to 65.74 percent under the
provisions of the Recovery Act. For the period April 1, 2009, through June 30, 2009, the State
of Nebraska’s FMAP was increased to 67.79 percent under these same provisions.




                                                1
Nebraska Home Health Agency Services

Nebraska Administrative Code 471, section 9-002.02, states that all home health services must
be necessary to a continuing medical treatment plan, prescribed by a licensed physician, and
recertified by the licensed physician every 60 days. In addition, Nebraska Administrative Code
471, section 9-002.04, requires HHAs to maintain clinical records that include a plan of care for
each client, signed by the physician responsible for that client’s care.

HHAs submit claims to the State agency in order to receive compensation for the services they
provide to Medicaid recipients. Payments for HHA claims are made on a per-visit basis,
whereby a visit is defined as consisting of 1 to 8 units and each unit is 15 minutes long.
(Services which require more than 8 units of service are paid for on an hourly basis.) Nebraska
Administrative Code 471, section 2-001.03, requires that HHAs submit claims which are true,
accurate, and complete, and maintain records on all services provided for which a claim has been
made. HHAs submit claims covering a period of time to the State agency; each claim may
contain multiple types of services.

For the period July 1, 2008, through June 30, 2009, the State agency claimed services totaling
approximately $23.1 million (approximately $14.9 million Federal share) for all HHA services.

First Care Home Health of Eastern Nebraska, Inc.

First Care Home Health of Eastern Nebraska, Inc. (First Care), is an HHA based in Lincoln,
Nebraska. For the period July 1, 2008, through June 30, 2009, the State agency claimed
$2,808,826 ($1,822,039 Federal share) for HHA services that First Care provided.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed costs for HHA services
provided by First Care in accordance with Federal and State requirements.

Scope

We reviewed claims for HHA services totaling $2,808,826 ($1,822,039 Federal share) that First
Care received from the State agency as reimbursement for the period July 1, 2008, though
June 30, 2009.

We did not review the State agency’s overall internal control structure because our objective did
not require us to do so. We did not review the HHA claims in our simple random sample
(discussed below) to determine medical necessity. We limited our internal control review to
those controls related directly to processing and monitoring HHA claims.

We conducted our fieldwork from March through June 2010 at the State agency and at First
Care’s Lincoln, Nebraska, location.

                                                2
Methodology

To accomplish our objective, we:

   •   reviewed Federal and State laws, regulations, and other requirements regarding Medicaid
       reimbursement for HHA services, as well as the Nebraska State plan;

   •   interviewed officials at the State agency to gain an understanding of how they administer
       and monitor the Medicaid HHA program;

   •   reconciled the State agency’s electronic claims data to the CMS-64 reports for the period
       July 1, 2008, through June 30, 2009;

   •   selected a simple random sample of 100 HHA claims from First Care, totaling $275,772
       ($178,989 Federal share);

   •   obtained and reviewed the supporting documentation for each sampled claim to
       determine the allowability of the services claimed;

   •   provided the results of our review and discussed those results with officials from First
       Care on March 29, 2010; and

   •   provided the results of our review and discussed those results with State agency officials
       on June 3, 2010.

The appendix details our sampling methodology.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                   RESULTS OF REVIEW

For our review of the 100 claims in our sample, we determined that the State agency claimed
costs for HHA services provided by First Care in accordance with Federal and State
requirements. Specifically, First Care (1) maintained medical records supporting all services
performed and (2) ensured that the services were performed as authorized in the physicians’
signed plans of care.

This report makes no recommendations.




                                                3
APPENDIX
                 APPENDIX: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of claims representing home health agency (HHA) services provided
by First Care Home Health of Eastern Nebraska, Inc. (First Care), for claims paid for the period
July 1, 2008, through June 30, 2009.

SAMPLING FRAME

The sampling frame is a database of claim records consisting of 1,057 claims totaling $2,808,826
($1,822,039 Federal share) for home health services paid to the provider First Care during the
period July 1, 2008, through June 30, 2009.

SAMPLE UNIT

The sampling unit is one Medicaid paid claim.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected 100 sample units (paid claims).

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services, statistical software (RAT-STATS).
